APPENDIX

Table of Contents
Order, United States Court of Appeals for the First Circuit,
United States v. Cruz-Rivera, No. 16-1321,
954 F.3d 410 (1st Cir. April 1, 2020) ............................................... 1a
Letter pursuant to Fed. R. App. P. 28(j),
United States v. Cruz-Rivera, No. 16-1321,
February 19, 2020 ............................................................................ 5a
Letter pursuant to Fed. R. App. P. 28(j),
United States v. Cruz-Rivera, No. 16-1321,
March 5, 2020 ................................................................................... 9a
***

Positive
As of: August 25, 2020 4:51 PM Z

United States v. Cruz-Rivera
United States Court of Appeals for the First Circuit
April 1, 2020, Entered
No. 16-1321

Reporter
954 F.3d 410 *; 2020 U.S. App. LEXIS 10210 **

Motion denied.
UNITED STATES OF AMERICA, Appellee, v. CARLOS
CRUZ-RIVERA Defendant, Appellant.

LexisNexis® Headnotes
Prior History: Cruz-Rivera v. United States, 139 S. Ct. 1391,
203 L. Ed. 2d 623, 2019 U.S. LEXIS 2112 (U.S., Mar. 25,
2019)
Criminal Law & Procedure > ... > Sentencing
Guidelines > Adjustments & Enhancements > Armed
Career Criminals

Core Terms
sentence, First Step Act, convictions

Criminal Law & Procedure > Sentencing > Imposition of
Sentence > Statutory Maximums
HN1[ ] Adjustments & Enhancements, Armed Career
Criminals

Case Summary
Overview
HOLDINGS: [1]-Defendant could not move to recall the
appellate mandate in his case and remand it for resentencing
because, while his case was pending on direct review, § 401 of
the First Step Act of 2018, Pub. L. No. 115-391, 132 Stat. 5194,
5221-5222 (Dec. 21, 2018), which lowered the mandatory
minimum sentences for certain repeat drug traffickers, applied
only to defendants who were sentenced after the its enactment,
and Congress did not intend the amendment in § 403(a) of the
Act to compel the re-opening of sentencing proceedings
concluded prior to the new law's effective date.

Congress changed the law so that contemporaneous 18
U.S.C.S. § 924(c) convictions no longer triggered the 25-year
mandatory minimum, which only applies to defendants who
violate § 924(c) after a prior conviction under that subsection
has become final. First Step Act of 2018, § 403(a), Pub. L. No.
115-391, 132 Stat. 5194, 5221-5222 (Dec. 21, 2018).

Governments > Legislation > Effect &
Operation > Retrospective Operation
Governments > Legislation > Types of Statutes
HN2[ ] Effect & Operation, Retrospective Operation

Outcome

As a default rule, a statute reducing criminal penalties does not
apply to crimes committed before its enactment unless it says
otherwise. 1 U.S.C.S. § 109. Section 403(b) of the First Step
Ines Mcgillion

1a

United States v. Cruz-Rivera
Act of 2018, § 403(a), Pub. L. No. 115-391, 132 Stat. 5194,
5221-5222 (Dec. 21, 2018), says otherwise.

Criminal Law & Procedure > Sentencing > Imposition of
Sentence > Statutory Maximums
Governments > Legislation > Interpretation
Governments > Legislation > Effect &
Operation > Prospective Operation
HN3[ ] Imposition of Sentence, Statutory Maximums
The title of § 40 of the First Step Act of 2018, § 403(a), Pub.
L. No. 115-391, 132 Stat. 5194, 5221-5222 (Dec. 21, 2018),
(which lacks the force of law), cannot overcome its operative
text, which demonstrates that Congress intended § 403 to put a
stop to unreasonably harsh stacked sentences without requiring
courts to redo sentences imposed while the old law was in
effect. The Court of Appeals for the First Circuit has already
held that an identical provision in § 401(c) of the Act, which
lowered the mandatory minimum sentences for certain repeat
drug traffickers, applies only to defendants who were
sentenced after enactment. Courts presume that the same term
has the same meaning when it occurs here and there in a single
statute.

And in federal sentencing under the guidelines system, the
ordinary practice is to apply new penalties to defendants not
yet sentenced, while withholding the change from defendants
already sentenced. Congress's word choice signals its intent to
follow that practice in §§ 401 and 403: a sentence is
customarily understood to be imposed either when it is
pronounced or entered in the trial court, regardless of
subsequent appeals. If Congress meant § 403 to apply to all
cases pending on direct appeal, instead of using the word
impose to mean something other than it does elsewhere,
Congress more likely would have written that § 403 applies to
pending cases if a sentence for the offense has not become final
as of such date of enactment, using the phrase it did in the
amendment itself and in many other provisions throughout the
Act that make finality the key.

Criminal Law & Procedure > Appeals > Motions to
Reopen
Governments > Legislation > Interpretation
Governments > Legislation > Effect &
Operation > Prospective Operation
Criminal Law & Procedure > Sentencing > Imposition of
Sentence > Statutory Maximums
HN6[ ] Appeals, Motions to Reopen

Governments > Legislation > Interpretation
HN4[ ] Legislation, Interpretation
The presumption of consistent usage in a statute yields when
dissimilar contexts cast different shades of meaning on the
same phrase.

Criminal Law & Procedure > Sentencing > Imposition of
Sentence > Statutory Maximums

Consistent with the usual practice in the federal system,
Congress did not intend the amendment in § 403(a) of the First
Step Act f 2018, § 403(a), Pub. L. No. 115-391, 132 Stat. 5194,
5221-5222 (Dec. 21, 2018), to compel the re-opening of
sentencing proceedings concluded prior to the new law's
effective date.

Counsel: [**1] For UNITED STATES, Appellee: Mariana
E. Bauza Almonte, Jenifer Yois Hernandez-Vega, Julia
Meconiates, Kelly Zenon-Matos, US Attorney's Office, San
Juan, PR.

Governments > Legislation > Interpretation
Governments > Legislation > Effect &
Operation > Prospective Operation
HN5[ ] Imposition of Sentence, Statutory Maximums
Both §§ 401(c) and 403(b) of the First Step Act of 2018, §
403(a), Pub. L. No. 115-391, 132 Stat. 5194, 5221-5222 (Dec.
21, 2018), serve the same purpose: to determine the new, more
lenient mandatory minima's applicability to pending cases.

For CARLOS CRUZ-RIVERA, a/k/a Chiqui, a/k/a Cano,
a/k/a Cano Llorens, Defendant - Appellant: Carlos CruzRivera, USP Tucson, Tucson, AZ; Ines de Crombrugghe
McGillion, Putney, VT.

Ines Mcgillion Page 2 of 4

2a

United States v. Cruz-Rivera
Judges: Before Thompson, Kayatta, and Barron, Circuit
Judges.

resentencing under the Act. Though we sympathize with Cruz's
position, we have carefully considered his and the
government's submissions and find we must deny his motion.

Opinion

[*411] ORDER OF COURT
In September 2018, we affirmed Carlos Cruz-Rivera's
convictions for three counts of carjacking, see 18 U.S.C. §
2119, and three counts of using or carrying a firearm during a
crime of violence, see 18 U.S.C. § 924(c), for which he was
sentenced to 872 months in prison. See United States v. CruzRivera, 904 F.3d 63, 66 (1st Cir. 2018). At the time, §
924(c)(1)(C)(i) required courts to impose a sentence of at least
twenty-five years for each "second or subsequent" § 924(c)
conviction, even if all the defendant's § 924(c) convictions
stemmed from the same indictment. See Deal v. United States,
508 U.S. 129, 137, 113 S. Ct. 1993, 124 L. Ed. 2d 44 (1993).
So the district court had to stack a twenty-five-year term for
each of Cruz's second and third § 924(c) convictions atop the
seven-year minimum for the first such count and Cruz's 188month sentence for the car-jackings. HN1[ ] After our
mandate issued, however, Congress changed the law so that
contemporaneous § 924(c) convictions no longer trigger the
twenty-five-year mandatory [**2] minimum, which now
applies only to defendants who violate § 924(c) after "a prior
conviction under [that] subsection has become final." First Step
Act of 2018, § 403(a), Pub. L. No. 115-391, 132 Stat. 5194,
5221-5222 (Dec. 21, 2018). Cruz, who had no § 924(c)
convictions when he committed the instant offenses, would not
have qualified for the recidivist minimum under the new law if
it had applied at his sentencing.

HN2[ ] As a default rule, a statute reducing criminal penalties
does not apply to [**3] crimes committed before its enactment
unless it says otherwise. See Dorsey v. United States, 567 U.S.
260, 264, 272-73, 132 S. Ct. 2321, 183 L. Ed. 2d 250 (2012); 1
U.S.C. § 109. Section 403(b) of the First Step Act says
otherwise: that § 403(a)'s amendment "shall apply to any
offense that was committed before the date of enactment of this
Act," with a limitation: "if a sentence for the offense has not
been imposed as of such date of enactment" (emphasis added).
Cruz urges us to read this sentence to mean the amendment
applies to cases (like his) that were pending on direct review,
and so were not final, when the Act was passed. At the time,
the Sixth Circuit's decision in United States v. Clark gave him
grist for his claim that a "sentence has not been finally
'imposed'" within the meaning of the Act until the appeal is
complete. 110 F.3d 15, 17 (6th Cir. 1997) (reaching that
conclusion in the context of the safety valve statute, 18 U.S.C.
§3553(f), which similarly applied "to all sentences imposed"
more than ten years after the enactment date). Soon after Cruz
filed his motion, however, the Sixth Circuit's decision in
Richardson on remand limited Clark to its statutory context and
even suggested it was wrongly decided. See United States v.
Richardson, 948 F.3d 733, 750-53 (6th Cir. 2020) (holding that
§ 403 of the First Step Act does not apply to cases that were
pending on appeal at the time of its enactment). And the
only [**4] other circuits to have addressed this issue now
agree with the Sixth. See United States v. Jordan, 952 F.3d
160, 171-74 (4th Cir. 2020); United States v. Hodge, 948 F.3d
160, 162-64 (3d Cir. 2020).

Soon after the First Step Act took effect, Cruz filed a timely
petition for certiorari in the United States Supreme Court,
arguing that the change entitled him to resentencing. Petition
for Writ of Certiorari, No. 18-7974 (U.S. Feb. 11, 2019).1 The
Supreme Court denied it. See Cruz-Rivera [*412] v. United
States, No. 18-7974, 139 S. Ct. 1391, 203 L. Ed. 2d 623 (Mar.
25, 2019). Months later, however, the Court vacated the Sixth
Circuit's judgment in a similar case — which was pending on
direct review when the First Step Act was enacted — and
remanded the matter to the court of appeals to "consider" the
new Act. Richardson v. United States, No. 18-7036, 139 S. Ct.
2713, 204 L. Ed. 2d 1107 (June 17, 2019). Encouraged, Cruz
moved us to recall our mandate in his case and remand it for

Undeterred, Cruz urges us to split from these circuits. He points
out that Congress titled § 403 a "clarification" of § 924(c),
which suggests that despite the Supreme Court's interpretation
in Deal, 508 U.S. at 131-37, Congress never intended courts to
sentence defendants like him — who had no prior § 924(c)
convictions before he committed the crimes in this case — as
repeat offenders subject to the twenty-five-year mandatory
minimum. HN3[ ] But § 403's title (which lacks the force of
law) can't overcome its operative text, which demonstrates that
Congress intended § 403 to put a stop to unreasonably harsh
stacked sentences without requiring courts to redo sentences
imposed while the old law was in effect. See Richardson, 948
F.3d at 747-48 (citing Fla. Dep't of Revenue v. Piccadilly
Cafeterias, Inc., 554 U.S. 33, 47, 128 S. Ct. 2326, 171 L. Ed.
2d 203 (2008)); Jordan, 952 F.3d at 173-74 (reaching the same
conclusion). We have already held that an identical provision

The Supreme Court granted Cruz's request for an extension of time

until February 11, 2019 to file the petition. Cruz-Rivera v. United
States, No. 18-7974 (U.S. Oct. 2, 2018).

1

Ines Mcgillion Page 3 of 4

3a

United States v. Cruz-Rivera
in § 401(c) of the First Step Act means that § 401, which
lowered the mandatory minimum sentences for certain repeat
drug traffickers, applies only to defendants who were
sentenced after enactment. See United States v. Gonzalez, 949
F.3d 30, 42 (1st Cir. 2020). We cannot conclude that Congress
used the same incantation two sections later to mean the
opposite when it comes to repeat § 924(c) offenders:
that [*413] § 403 is fully retroactive. See Envtl. Def. v. Duke
Energy Corp., 549 U.S. 561, 574, 127 S. Ct. 1423, 167 L. Ed.
2d 295 (2007) ("We presume [**5] that the same term has the
same meaning when it occurs here and there in a single
statute.").

[the] new law's effective date." Dorsey, 567 U.S. at 280.
Accordingly, the motion to recall our mandate is denied. See
United States v. Fraser, 407 F.3d 9, 10 (1st Cir. 2005)
(explaining that we may only recall our mandate "upon a
showing of 'extraordinary circumstances'" (quoting Calderon
v. Thompson, 523 U.S. 538, 550, 118 S. Ct. 1489, 140 L. Ed.
2d 728 (1998)).

End of Document

HN4[ ] To be sure, the presumption of consistent usage
yields when dissimilar contexts cast "different shades of
meaning" on the same phrase. Id. But that is not the case here.
HN5[ ] Both subsections serve the same purpose: to
determine the new, more lenient mandatory minima's
"applicability to pending cases." First Step Act, §§ 401(c),
403(b), 132 Stat. at 5221-5222. And "in federal sentencing"
under the guidelines system, "the ordinary practice is to apply
new penalties to defendants not yet sentenced, while
withholding the change from defendants already sentenced."
Dorsey, 567 U.S. at 280. As we held in Gonzalez, Congress's
word choice signals its intent to follow that practice in §§ 401
and 403: "[a] sentence is customarily understood to be imposed
either when it is pronounced or entered in the trial court,
regardless of subsequent appeals." 949 F.3d at 42; see also
Richardson, 948 F.3d at 748 (noting that "Congress has
repeatedly used derivations of the word 'impose' to denote the
moment that the district court delivers the defendant's
sentence" and listing examples). If Congress meant § 403 to
apply to all cases pending on direct appeal, instead of using the
word "impose" to mean something other than it does
elsewhere, [**6] Congress more likely would have written that
§ 403 applies to pending cases "if a sentence for the offense has
not become final as of such date of enactment," using the phrase
it did in the amendment itself and in many other provisions
throughout the Act that make finality the key. See First Step
Act, § 403(a), 132 Stat. at 5222 (striking "second or subsequent
conviction under this subsection" and inserting "violation of
this subsection that occurs after a prior conviction under this
subsection has become final" (emphasis added)); id. §
401(a)(2)(A)(i)-(ii) & (b)(1), 132 Stat. at 5220-21; see also
Jordan, 952 F.3d at 173 (refusing to read "imposed" to mean
"became final" because "[w]here Congress wanted to make
finality a benchmark . . . it did so"); Hodge, 948 F.3d at 163
(same).
HN6[ ] Thus, we can only conclude that, consistent with the
usual practice in the federal system, Congress did not intend
the amendment in § 403(a) of the First Step Act to compel the
"re-opening [of] sentencing proceedings concluded prior to
Ines Mcgillion Page 4 of 4

4a

Case: 16-1321

Document: 00117553591

Page: 1

Date Filed: 02/19/2020

Entry ID: 6318335

INES MCGILLION LAW OFFICES, PLLC
P.O. Box 212
126 Main Street
Putney, Vermont 05346
www.MCGILLIONLAW.com
Tel.: 802.258.6441
Fax: 802.419.3222
Email: ines@MCGILLIONLAW.com

Ines McGillion, Esq.
Attorney

February 19, 2020
Via CM/ECF
Margaret Carter, Clerk of Court
U.S. Court of Appeals for the First Circuit
John Joseph Moakley U.S. Courthouse
1 Courthouse Way, Suite 2500
Boston, MA 02210
Re:

United States v. Carlos CRUZ-RIVERA, No. 16-1321
Appellant’s letter pursuant to Fed. R. App. P. 28(j)
Regarding First Step Act § 403’s application in pending
cases where a sentence was not final because it was vacated.

Dear Mrs. Carter:
Mr. Cruz-Rivera respectfully submits this letter to inform the Court of various
district court decisions that have applied the reduced penalties called for by §§ 403 and
401 of the First Step Act at resentencings following direct appeals and collateral
proceedings, thus after a sentence has been “imposed,” while a case was still pending in
the courts, and necessarily where a sentence was not final. These courts have rejected the
reading urged by government filings and arguments that “imposed” as used in these
statutory provisions clearly meant “initially imposed” or “already imposed” or “imposed
even if not final,” at the time a district court pronounced the sentence.
A district court within the 6th Circuit has applied § 403 at resentencing
following a successful § 2255 motion: In United States v. Crowe, No. 2:11-cr-20481AJT-MKM (E.D. Mich.), the district court held that “Section 403 of the First Step Act is
applicable to Mr. Crowe’s resentencing” following a successful 28 U.S.C. § 2255 motion.
Opinion and Order, Doc. 287 at 6. The government objected to the updated PSR’s
recommendation of two five-year mandatory minimums under the First Step Act, and
argued the second conviction should carry the old 25-year minimum. Id. at 2. The
district court rejected the government’s reading, reasoning that the “‘clarification of
Section 924(c)’ represents Congressional intent to abrogate Deal by statute, not merely
change the law,” and that “[i]t would be wrong to continue to apply abrogated precedent
in a pending case.” Id. at 6. Furthermore, the First Step Act was enacted against
background legal principles of plenary resentencing. Id. at 7. And finally, the court
wished to avoid sentencing disparities, noting “when courts ‘impos[e] upon the pre-Act
offender a pre-Act sentence at a time after Congress had specifically found . . . that such a

5a

Case: 16-1321

Document: 00117553591

Page: 2

Date Filed: 02/19/2020

Entry ID: 6318335

sentence was unfairly long” it magnified the unfairness. Id. at 8 (quoting Dorsey v.
United States, 567 U.S. 260, 277 (2012)). Congress expressly “included a retroactivity
provision” in the First Step Act and “there is no indication that they meant to restrict that
relief to defendants who were being sentenced for the first time.” Id. at 10. The
government’s “draconian interpretation would fly in the face of basic principles of
fairness, justice, and common sense.” Id. at 11. Only the government has appealed. The
government’s initial brief to the Sixth Circuit, in docket no. 19-2249, filed Feb. 6, 2020,
argues that the “First Step Act would only apply to a defendant who had never been
sentenced at all prior to the Act’s enactment.” Doc. 13 at 21.
A district court within the 6th Circuit has applied § 403 at resentencing
following a successful direct appeal: In United States v. Jackson, the Sixth Circuit
vacated one of three § 924(c) convictions (for the § 924(c) counts alone Jackson had
received an aggregate sentence of 687 months) and remanded for resentencing. The
district court held § 403 applied at resentencing, over the government’s objection. United
States v. Jackson, No. 1:15-Cr-453-001, 2019 U.S. Dist. LEXIS 102563, 2019 WL
2524786 (N.D. Ohio June 18, 2019). The general federal savings statute was overcome
by the fact that “the express language in Section 403(b) demonstrates Congress’ intent to
apply the Section 924(c) penalty provisions retroactively.” Id. at *3.
The court rejected that § 403 could not apply because a sentence “literally was
previously ‘imposed,’” and that more specific language was needed to “apply new
penalties to cases pending on appeal.” Id. at *2. Agreeing with the district court’s
reasoning in United States v. Uriarte (an Illinois district court decision described below),
it found Congress legislated § 403 against the backdrop of decisions applying the Fair
Sentencing Act to cases pending remand, and that it intended to avoid different sentences
for defendants sentenced on the same day. Id. at **6-7. Mr. Jackson was resentenced to
two stacked 7-year sentences on the § 924(c) counts. Both parties appealed, and the
government is arguing the First Step Act amendments do not apply retroactively to a
defendant sentenced before December 21, 2018. See Sixth Circuit, Nos. 19-3623, 193711.
A district court within the Second Circuit has applied § 403 on resentencing
following a direct appeal: In Acosta v. United States, No. 1:03-cr-00011-MAT, 2019
U.S. LEXIS 149018, 2019 WL 4140943 (W.D.N.Y. Sept. 2, 2019) the district court held,
at a resentencing following a successful § 2255 motion, that § 403 of First Step Act
applied. The Acosta district court stated it “agrees with the reasoning and result” of
United States v. Jackson, No. 1:15 CR 453-001, 2019 Dist. LEXIS 102563, 2019 WL
2524786, at *1 (N.D. Ohio June 18, 2019) which held “express language” in “403(b)
demonstrates Congress’s intent to apply the Section 924(c) penalty provisions
retroactively,” citing United States v. Uriarte, No. 09-CR-332-03, 2019 U.S. Dist. LEXIS
70363, 2019 WL 1858516, at **1-2 (N.D. Ill. Apr. 25, 2019) (holding that § 403(a) of the
First Step Act applies retroactively at resentencing). The Acosta court rejected the
government’s arguments that the First Step Act provided “only for limited retroactive
application” and that it could not apply to a defendant already “sentenced before the
enactment.” See Government’s Supplemental Response, Doc. 269 in 1:03-cr-00011RJA-HKS. In light of the court’s ruling, the parties negotiated a disposition.

2
6a

Case: 16-1321

Document: 00117553591

Page: 3

Date Filed: 02/19/2020

Entry ID: 6318335

One district court within the Seventh Circuit applied § 403 on resentencing
following direct appeal: In United States v. Uriarte, the Northern District of Illinois
held “§ 403(a) of the First Step Act applies retroactively” to a resentencing following
remand from the Seventh Circuit. United States v. Uriarte, No. 09-CR-332-03, 2019 U.S.
Dist. LEXIS 70363, 2019 WL 1858516, at *3 (N.D. Ill. Apr. 25, 2019). The Seventh
Circuit had vacated one 924(c) conviction because brandishing had not been submitted to
the jury and remanded for resentencing on all counts, including a second § 924(c)
conviction that carried a 25-year sentence. The Uriarte court reasoned § 403(b)
contained “plain language” indicating Congressional intent to make a reduction in
penalties retroactive, satisfying the requirement under the general federal savings statute,
1 U.S.C. § 109, that a penal statute “expressly provide” that a reduction in penalties be
retroactive. Id. at *5. The district court concluded Congress intended retroactivity to
“reach cases pending on remand for resentencing” where a sentence was “previously
‘imposed.’” Id. Following the Supreme Court’s reasoning in Dorsey v. United States,
567 U.S. 260 (2012), the court concluded Congress enacted § 403 against the backdrop of
law providing that courts resentenced defendants “on a clean slate,” and against the
backdrop of decisions applying the Fair Sentencing Act to cases pending on remand. The
district court rejected the government’s arguments that § 403’s provisions “do not affect
defendants initially sentenced on or before December 20, 2018.” Gov’t Suppl. Reply,
ECF No. 1830 at 2. The government’s appeal, Seventh Circuit docket No. 19-2092,
consolidated with a co-defendant’s appeal, has been fully briefed since January 3, 2020
and is awaiting disposition.
One district court within the Seventh Circuit applied § 403 on resentencing
following a successful 28 U.S.C. § 2241 petition: In United States v. Jones, No. 1:97cr-00118-RLY-DKL-1 (S.D. Ind.), the district court applied § 403 when it resentenced a
defendant following a successful § 2241 petition, where a state conviction was no longer
a crime of violence under the career offender guideline, and replaced Mr. Jones’ prior
stacked § 924(c) convictions carrying 5 years and two 20 year sentences with stacked 5
year sentences, totaling 15 years. The district court rejected the government’s arguments
at sentencing that § 403 could not be applied retroactively at resentencing, and that the
defendant had already benefitted from being convicted in 1997, before the 924(c)
penalties had increased from 20 to 25 years, and ruled that the vacation of the sentence
required de novo resentencing and application of § 403. (Doc. 82, Sentencing Transcript
at pp. 28-35.) Mr. Jones has appealed his sentence on grounds the district court failed to
justify a sentence 37 years in excess of the guidelines range. The government initially
appealed as well, but has since withdrawn its appeal. (7th Cir. No. 19-1644, Doc. 10.)
One district court within the Seventh Circuit applies § 403 on resentencing
following a successful 28 U.S.C. § 2255 motion: In United States v. McCoy, on
resentencing following a successful § 2255 motion, the district court ruled § 403 of the
First Step Act applied at resentencing, and imposed 60 months on each of three § 924(c)
counts, which 27 years ago had resulted in a 45-year sentence. See United States v.
McCoy, No. 1:92-cr-00096-SEB-DKL (S.D. Ind.), Doc. 15, Courtroom Minutes for
Resentencing, and Doc. 16, Amended Judgment. The district court rejected the
government’s arguments that the First Step Act “does not apply retroactively” and that a
sentence had already been “imposed” for First Step Act purposes. See Doc. 16, Gov’t
Sentencing Memorandum. Neither party appealed the amended judgment. Mr. McCoy

3
7a

Case: 16-1321

Document: 00117553591

Page: 4

Date Filed: 02/19/2020

Entry ID: 6318335

argued Mr. McCoy’s case was “pending” under § 403, that 403 was a clarification of §
924(c) that abrogated the Supreme Court’s interpretation in Deal, and that it would be
wrong to apply a defunct legal principal. Doc. 14.
A district court within the Ninth Circuit applied § 401 at resentencing
following a successful 28 U.S.C. § 2255 motion: In United States v. Ortega, No. CR
10-825-R, (C.D. Ca.), the defendant in February 2011 had been sentenced, among other
counts, to a mandatory life sentence under 21 U.S.C. §§ 846 and 841(a)(1) and
841(b)(1)(A) on Count 3, and a consecutive 32 years on stacked § 924(c) counts (Counts
4 and 7) following a jury trial. His third habeas petition, challenging count 4 and its
seven-year sentence on grounds the underlying crime could not serve as a predicate for a
§ 924(c) conviction, was granted on January 30, 2019. At resentencing, the defendant
argued he was no longer subject to a mandatory life sentence or 25 years on Count 3
under § 401 of the First Step Act. The government argued that because the court had
“already sentenced defendant” back in 2011, the First Step Act had no application and the
old statute required a life sentence. (Doc. 315 at 10.). The district court rejected the
government’s position and held that § 401 of the First Step Act applied “because the
defendant is being resentenced and on resentencing the usual rule that applies is that the
current law applies.” (Doc. 326, Sentencing Transcript at 7-8.) The district court
imposed 180 months on grouped counts and a mandatory minimum 5 years on the
remaining § 924(c) count, for a total of 240 months. The government initially appealed,
but then moved for voluntary dismissal of the appeal. (Doc. 330.)
A district court in the Eleventh Circuit applied § 401 at resentencing
following a successful 28 U.S.C. § 2255 motion: In United States v. Beneby, the
defendant was resentenced following a successful § 2255 motion which demonstrated he
did not qualify as a career offender under the guidelines. United States v. Beneby, No.
1:13-cr-20577-MCG (S.D. Fla.). Mr. Beneby objected to the revised PSI on grounds he
should no longer be subject to a 10-year mandatory minimum because a prior conviction
did not qualify as a “serious drug felony” under § 401 of the First Step Act. See Doc.
155. The government argued that the fact sentence had first been imposed in March 2014
precluded application of the Act. The district court disagreed, finding the sentence had
been vacated and was no longer imposed, and cited legislative intent, namely, “the entire
point of the First Step Act,” was to mitigate “draconian sentences” and permit “discretion
during sentencing.” Doc. 174, Sentencing Transcript at 4, 5. Mr. Beneby was sentenced
to 60 months under 21 U.S.C. § 841(b)(1)(B) and the First Step Act. Id. at 13. The
government filed a notice of appeal and has filed an opening brief in the Eleventh Circuit,
in docket No. 19-13387.
Sincerely,
/s/ Ines McGillion
Ines de C. McGillion
USCOA No. 1159609
INES MCGILLION LAW OFFICES, PLLC

cc: AUSA Julia M. Meconiates

4
8a

Case: 16-1321

Document: 00117561263

Page: 1

Date Filed: 03/05/2020

Entry ID: 6322534

INES MCGILLION LAW OFFICES, PLLC
P.O. Box 212
126 Main Street
Putney, Vermont 05346
www.MCGILLIONLAW.com
Tel.: 646.246.3868
Fax: 802.419.3222
Email: ines@MCGILLIONLAW.com

Ines McGillion, Esq.
Attorney

March 5, 2020
Via CM/ECF
Margaret Carter, Clerk of Court
U.S. Court of Appeals for the First Circuit
John Joseph Moakley U.S. Courthouse
1 Courthouse Way, Suite 2500
Boston, MA 02210
Re:

United States v. Carlos CRUZ-RIVERA, No. 16-1321
Appellant’s letter pursuant to Fed. R. App. P. 28(j)
Regarding Fourth Circuit’s decision in United States v. Jordan, and
the First Step Act § 403’s application in a case where sentence had
already been “imposed.”

Dear Mrs. Carter:
Pursuant to Fed. R. App. P. 28(j), undersigned counsel for Defendant-Appellant
Mr. Cruz-Rivera informs the court of the following authorities.
On March 3, 2020, in United States v. Jordan, No. 17-4751, 2020 U.S. App.
LEXIS 6706, the Fourth Circuit refused to apply § 403 of the First Step Act on a direct
appeal where sentence was imposed prior to enactment. The court reasoned “a sentence
is ‘imposed’ when the district court announces it, not when appeals are exhausted.”
Jordan, at *26. Furthermore, “finality” was not a requirement. It also held § 403 was not
a “clarification,” but rather a substantive change in law. Id. at **29-30. It held the
section “excludes cases” “in which a defendant is sentenced before the Act’s effective
date.” Id. at *30. The panel, however did not “have any occasion to address how §
403(b) might apply to a resentencing, rather than an initial sentencing like Jordan’s.” Id.
at *27 n.6. The decision did not address Congress’s remedial intent, nor the rule of
lenity.
In United States v. Robinson, a district court within the Fourth Circuit applied §
403 at a resentencing following a successful § 2255 motion, entering its amended
judgment on November 12, 2019, reducing defendant’s 2005 sentence from 193 years
(2,319 months) to 235 months. The government’s motion to reconsider application of the
First Step Act (Doc. 192), on grounds a sentence had already been “imposed,” was

9a

Case: 16-1321

Document: 00117561263

Page: 2

Date Filed: 03/05/2020

Entry ID: 6322534

denied at sentencing. No appeal has been filed. United States v. Robinson, No. 5:02-cr80 (E.D.N.C.).

Sincerely,
/s/ Ines McGillion
Ines de C. McGillion
USCOA No. 1159609
INES MCGILLION LAW OFFICES, PLLC

cc: AUSA Julia M. Meconiates

2
10 a

